<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 115-534]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-534

                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   on


S. 1089            S. 2968            S. 3495
S. 1713            S. 3088            S. 3618/H.R. 6511
S. 1875            S. 3295            S. 3656/H.R. 6398
S. 2257            S. 3376            S. 3676
S. 2803            S. 3422
 


                               __________

                           NOVEMBER 29, 2018

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-661 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
        
        
        


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota
                                 ------                                

                         Subcommittee on Energy

                         CORY GARDNER, Chairman

JAMES E. RISCH                       JOE MANCHIN III
JEFF FLAKE                           RON WYDEN
STEVE DAINES                         BERNARD SANDERS
LAMAR ALEXANDER                      MARTIN HEINRICH
JOHN HOEVEN                          ANGUS S. KING, JR.
BILL CASSIDY                         TAMMY DUCKWORTH
ROB PORTMAN                          TINA SMITH
SHELLEY MOORE CAPITO

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Scott McKee, Democratic Professional Staff Member
           
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Gardner, Hon. Cory, Subcommittee Chairman and a U.S. Senator from 
  Colorado.......................................................     1
Manchin III, Hon. Joe, Subcommittee Ranking Member and a U.S. 
  Senator from West Virginia.....................................     2
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....    14

                               WITNESSES

Barton, Hon. Joe, a U.S. Representative from Texas...............    13
Menezes, Hon. Mark W., Under Secretary, U.S. Department of Energy    16

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Public Gas Association:
    Statement for the Record.....................................     7
American Public Gas Association, et al.:
    Letter for the Record........................................    11
Barton, Hon. Joe:
    Opening Statement............................................    13
Carbon Utilization Research Council:
    Letter for the Record........................................     4
Cassidy, Hon. Bill:
    Chart: Figure 1. Strategic Petroleum Reserve.................    31
Clean Harbors Inc., et al.:
    Statement for the Record.....................................    76
Duckworth, Hon. Tammy:
    Report from the GAO addressed to Representative Conyers and 
      Senator Byrd dated 12/20/2007..............................    39
    CFR Publication: ``Your Rights under the Energy 
      Reorganization Act''.......................................    56
    Section 629 of the Energy Policy Act of 2005.................    57
Gardner, Hon. Cory:
    Opening Statement............................................     1
Industrial Energy Consumers of America:
    Statement for the Record.....................................    78
Make It Safe Coalition Steering Committee:
    Letter for the Record........................................    60
Manchin III, Hon. Joe:
    Opening Statement............................................     2
Menezes, Hon. Mark W.:
    Opening Statement............................................    16
    Written Testimony............................................    19
    Responses to Questions for the Record........................    63
Murkowski, Hon. Lisa:
    Opening Statement............................................    14

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
public/index.cfm/2018/11/subcommittee-on-energy-legislative-hearing

 
                          PENDING LEGISLATION

                              ----------                              


                      THURSDAY, NOVEMBER 29, 2018

                               U.S. Senate,
                            Subcommittee on Energy,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Cory Gardner, 
presiding.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner [presiding]. The Subcommittee will come to 
order.
    Thank you, everyone, for being here this morning. Good 
morning.
    The Subcommittee comes together today for a legislative 
hearing on a number of bills. As always, I appreciate the 
opportunity to work with the Subcommittee's Ranking Member, 
Senator Manchin, to address key topics in the energy space.
    This legislative hearing will allow us the opportunity to 
receive testimony from and ask questions of the Under Secretary 
of Energy, Mark Menezes--is that correct?
    Mr. Menezes. Menezes, which is very close.
    Senator Gardner. Menezes--excellent, very good, thank you--
of the Department of Energy, the agency that would be 
responsible for implementing the changes laid out in the 
various pieces of legislation.
    One of the bills on the docket that I have been working on 
with my colleague, Senator Bennet, is the Enhancing State 
Security Planning and Emergency Preparedness Act.
    In response to Presidential Executive Order 13800 directing 
the Department of Energy (DOE) to assess the potential scope 
and duration of a prolonged power outage associated with a 
significant cyber incident, the readiness of the United States 
to manage the consequences of such an incident and any gaps or 
shortcomings in assets or capabilities required to mitigate the 
consequences of such an incident, the DOE issued a report 
titled, ``Assessment of Electricity Disruption Incident 
Response Capabilities.'' This assessment listed several gaps 
related to state energy security planning, citing the needs for 
states to coordinate their planning efforts with federal and 
industry partners, states to include integration of cyber 
information sharing mechanisms and DOE to support state and 
local planning and help identify gaps and/or overlapping 
resources.
    The legislation that Senator Bennet and I have introduced, 
slightly modified from its House companion bill introduced by 
Congressman Upton, is designed to address those gaps. The bill 
outlines the contents of a state security plan, including the 
need for coordination and joint exercises with industry and 
federal stakeholders. This plan will assess the state's 
existing circumstances and propose methods to strengthen the 
ability of the state to secure its energy infrastructure 
against all physical and cyber threats, mitigate the risk of 
energy supply disruptions to the state, enhance the response to 
and recovery from energy supply disruptions and to ensure the 
state has a reliable, secure and resilient energy 
infrastructure.
    I am proud to be an original co-sponsor of Senator Ernst's 
Department of Energy Veteran's Health Initiative Act. This bill 
will authorize an existing partnership between the two agencies 
that uses the computational power and analytical techniques 
harnessed within the DOE's national laboratory system to 
enhance our understanding of the health care challenges faced 
by our veteran population and could improve the VA's approach 
to suicide prevention, cancer treatment and cardiovascular 
care. More than half a million veterans have already opted into 
the program, volunteering their health data to contribute to 
this important research. The methods and capabilities developed 
during this program could be expanded down the road to further 
the mission and goals of DOE, the national lab system and other 
federal agencies. It is also worth pointing out that the 
funding required for this partnership and the pilot program in 
the bill has already been included in the FY'19 Energy and 
Water Appropriations bill.
    I am a supporter of Senator Duckworth's bill, Energy Jobs 
for Our Heroes Act, which will create a program that prepares 
veterans for jobs in the clean energy sector.
    Other bills included on the agenda will cover areas such as 
grid energy, conservation, LNG exports, the Strategic Petroleum 
Reserve and nuclear energy.
    I now turn to Senator Manchin for his introductory remarks, 
and then we will introduce our witnesses and turn to 
Congressman Barton.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Chairman Gardner, for holding 
this hearing to discuss the 14 bills on today's agenda.
    I would also like to thank our witnesses, Congressman 
Barton and Mr. Menezes, for appearing today to discuss these 
proposals with us. It is good, as always, to see you all again.
    The bills cover a range of topics, but I would like to 
highlight two proposals in particular.
    First, my bill with Senator Heitkamp, the Fossil Energy 
Utilization Enhancement and Leadership Act, or we better know 
it as the ``FUEL Act.'' This bill would direct the Department 
of Energy to establish and update a coal technology program to 
develop new transformational technologies for coal-powered 
generation, which would help protect coal jobs while reducing 
greenhouse gas emissions.
    The coal technology program will include the following 
components: the research and development program; a large-scale 
pilot program; a demonstration projects program; net-negative 
carbon dioxide emission projects; and a front-end engineering 
and design, or a FEED, program. The bill also establishes a 
research, development and deployment program for carbon 
utilization, as well as an interagency task force on carbon 
dioxide pipelines.
    The bill includes Senator Heitkamp's DOE study on the 
benefits of long-term contracts between the government and 
utilities to ensure viable market prices for carbon dioxide for 
uses like enhanced oil recovery. It also includes the 
authorization for the DOE to continue R&D for advanced 
separation technologies for rare earth elements from coal and 
coal by-products, which Mr. Menendez----
    Mr. Menezes. Menezes.
    [Laughter.]
    Senator Manchin. ----Menezes and I discussed last year. 
Cory messed me up on that.
    [Laughter.]
    Senator Gardner. I am sorry about that.
    Mr. Menezes. Believe me, I sat next to this Chairman for 
years.
    Senator Gardner. That is our DOE witness.
    [Laughter.]
    Senator Manchin. Mr. Chairman, I would like to submit a 
letter from the Carbon Utilization Research Council in support 
of this legislation for the record.
    Senator Gardner. Without objection.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Manchin. The second bill I would like to highlight 
is the All-of-the-Above Federal Building Energy Conservation 
Act of 2018. I was happy to partner again with Senator Hoeven 
on the newest version of this bill, which we have been working 
on for several years now.
    Energy conservation is the key cost savings tool for the 
Federal Government and it is important that the relevant 
regulations and standards are consistent, ambitious and 
effective. Therefore, this bill provides building managers with 
more flexibility. It repeals the Section 433 ban on the use of 
fossil fuels in federal buildings, which was never implemented, 
and it replaces it with commonsense energy efficiency measures 
that will allow federal building managers to focus on energy 
management systems by providing them more flexibility. It also 
strengthens recommissioning of existing buildings and ensures 
that major renovations of federal buildings meet the same 
standards that new federal buildings are required to meet, 30 
percent less energy use.
    I would like to submit a July 26 letter signed by 10 major 
trade associations in support of this bill, as well as this 
written statement from the American Public Gas Association.
    I was also happy to see Senator Murkowski's Nuclear Energy 
Leadership Act on the agenda, a bill which I co-sponsored.
    In conclusion, I am excited to discuss these bills today. 
As a member of the Veterans Affairs Committee, I am also 
interested in hearing more about Senator Duckworth's proposal 
to expand support for veterans through the ``Energy Ready Vets 
Program'' at DOE, as well as Senator Ernst's initiative to use 
DOE computing capability to support veterans' health 
initiatives.
    I look forward to working with Chairman Murkowski, Ranking 
Member Cantwell, Chairman Gardner and my colleagues to move 
these proposals forward.
    I will go ahead and submit these. I want to submit these 
letters to you. Thank you.
    Senator Gardner. Without objection.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Gardner. Thank you, Senator Manchin.
    I will now turn to Congressman Barton, our colleague from 
the great State of Texas.
    Before you begin, I just want to thank you for your years 
of service. Congressman Barton, I began in the House on your 
Energy and Commerce Committee. If I would have stayed there, I 
would now be Ranking Member of the least senior group of the 
Committee.
    [Laughter.]
    So I would probably be on the fourth row still, but it is 
great to have you here, Congressman Barton. Thank you, welcome.
    We will allow you to proceed with your comments on H.R. 
6511, the Strategic Petroleum Reserve Reform Act, and then we 
will 
turn to Chairman Murkowski for some comments and then Mr. 
Menezes.

                 STATEMENT OF HON. JOE BARTON, 
                A U.S. REPRESENTATIVE FROM TEXAS

    Mr. Barton. Thank you, Chairman.
    I feel like it's old home week. The first time I was in 
this very hearing room was in 1981 when I was a White House 
Fellow with the Department of Energy, and there was a hearing 
on decontrol of wellhead prices which I later offered a bill in 
the late '80s that passed and became law when President Bush 
signed. I was sitting back there. The room was crowded. There 
were lots of cameras, lots of Senators and I was just in awe of 
even being in the building.
    So we've come full circle. I come back today. I would 
consider you to be a protege of mine and Senator Cassidy. I 
served with Congressman Portman before he became Senator 
Portman. Of course, I've known Senator Murkowski and I knew her 
dad very well. I can't say I've known Senator Manchin or 
Senator Smith, but I should have. So I'm honored to be here. Of 
course, Under Secretary Menezes used to work for me and helped 
pass the Energy Policy Act of 2005. So it's an honor to be 
here.
    Today's bill is, I mean--I think Senator Manchin pointed 
out, and you pointed out, you've got 14 bills you're looking 
at. They're all important bills. It's a good thing to see the 
Senate working together. I wish there were some TV cameras here 
to show that you can cooperate. It's not all the Kavanaugh 
hearing and things like that.
    My bill is one of those bills. We have a great Democratic 
sponsor, Congressman Bobby Rush of Chicago, who is probably 
going to be the next Subcommittee Chairman of the Energy 
Subcommittee of the Energy and Commerce Committee. So it's 
bipartisan.
    I'm not aware of any opposition. Now, there may be some. I 
guess that would be the purpose of today's hearing, but the 
Administration supports it and I've talked personally to 
Secretary Perry about this.
    The Strategic Petroleum Reserve (SPR) was established in 
1970 and, contrary to popular belief, I was not in the Congress 
in 1970.
    [Laughter.]
    We were just coming out of the Arab oil embargo, there were 
lots of issues about whether the United States could ever be 
energy independent and we wanted to preserve our domestic 
resources, but we also wanted to build a reserve in case there 
was another oil embargo. Through the years, we've authorized up 
to a billion barrels. At one time we actually built capacity 
for about 700 million and, I believe, we have a little under 
500 million barrels in the reserve. The last five to six years, 
as our energy situation has improved, the Congress and the 
President have begun to use the reserve. It's, kind of, an 
emergency piggy bank.
    In the 21st Century Cures Act, we authorized selling enough 
oil to fund $6 billion in research to find a cure for cancer 
and other diseases, just in the last Congress.
    So this bill, it's a simple bill. It simply says if we have 
unused capacity--at the discretionary of the Secretary of 
Energy to put it up for bid to be leased and give an option to 
the private sector to lease it. The Secretary doesn't have to 
put it up for bid. It's not mandatory and if he does, or she 
does, depending on who the Secretary is at the time, the 
private sector doesn't have to do anything, but if they do want 
to do it, the existing fiscal reserve is located near oil 
refineries on the Gulf Coast.
    It does have an infrastructure in place. It needs to be 
updated, but it would make it a good thing for the private 
sector to utilize the unused space. And it would be a good 
thing for the people of the United States because the money 
that would be obtained from leasing--some of that money could 
be used to update and modernize the SPR. This would not be a 
Yucca Mountain situation where the ratepayers pay into the 
trust fund, but the money is used for everything but building 
Yucca Mountain. So it's a great bill. I hope the Committee will 
hear it favorably.
    And one last thing--my time is about to run out, being a 
House member, I do honor time constraints.
    [Laughter.]
    In December of this year coming up, there is the 
probability that we are going to export more crude oil than we 
import. For the first time in forever, we are going to be truly 
energy independent in oil but also in natural gas. And as 
Senator Manchin well knows, we export a lot of coal. So we have 
reached that nirvana where the United States of America is 
going to be totally energy independent. Nobody would have 
dreamed of that, even 20 years ago, and I think that's a good 
thing.
    With that, I yield back.
    Senator Gardner. Thank you, Congressman, and again, thank 
you for your service and being back with the Senate Energy 
Committee. Thank you.
    Chairman Murkowski, the Chairman of the full Committee.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you, Mr. Chairman, and I am so glad 
that I was here to hear my friend and fine Congressman from 
Texas, Representative Barton.
    I appreciate your leadership, the effort that we made to 
lift that oil export ban, that 40-year policy that has allowed 
us now to be a participant, to be a major player, a world 
player with our oil resources has been transformative. You led 
on the House side on that initiative, and I appreciate your 
leadership there.
    I also appreciate what you have been doing as you review 
our Strategic Petroleum Reserve. You used the term, it has been 
viewed as, the ``emergency piggy bank.'' I have called it the 
ATM for whatever Congress is looking for.
    I, along with so many members on this Committee, guard 
jealously that safety net that we put in place purposely, not 
to make it easier for you to drive up to the pump and pay a few 
pennies more, but to be that emergency reserve. And so, we need 
to make sure that that Strategic Petroleum Reserve is actually 
strategic. And that is why the effort for the modernization, I 
think, has been important. That is why I think we need to be 
very watchful and very guarded as we access it.
    But your proposal for this review for options as we 
recognize that we do see changes is one certainly worthy of 
consideration. I know that an analysis, a review of all aspects 
of our Strategic Petroleum Reserve, is underway with the 
Department and I look forward to that.
    I wanted to take just a couple of minutes, Mr. Chairman, 
and speak to a bill that is on your calendar this morning, and 
I appreciate all the good legislation that is out there.
    I have introduced one that we are calling the Nuclear 
Energy Leadership Act, and I have long been concerned that here 
in this country we are ceding our place as a global leader in 
nuclear power. We have competitors--with China, with Russia--
who are moving forward with advanced nuclear technologies, and 
I just think that we have been slow to come together around any 
form of a coherent strategy.
    In order to be a serious player in a global nuclear future, 
we have to develop, we have to commercialize and we have to 
sell the most advanced reactors in the world. If we don't do 
that, what we risk is that we will no longer be this arbiter of 
nuclear safety and security, we basically put that in the hands 
or in the control of nations like Russia and China.
    But we have some of the smartest people in the world at our 
national labs, in our universities, in industry. There are 
innovators working across the United States to bring their 
advanced reactor concepts to market, ranging from water-cooled 
to salt-cooled, from low temperature to high temperature and 
from a few megawatts to thousands. I think we all recognize 
that these different technologies may have different 
applications in a niche here or there, but we do not know that 
until we are able to better understand where these technologies 
might fit into the market.
    We are seeing other countries that are directing billions 
of dollars behind advanced technologies that they will rapidly 
develop through their state-owned enterprises. And so, in order 
to compete, we need DOE to partner with our industry. We need 
to change policies to better focus our efforts.
    There is a lot of good work going on. This is a very 
bipartisan effort. I am pleased to be able to work with Senator 
Booker as my lead co-sponsor, but we have a lot of members of 
this Committee that have joined us, Senators Risch, Capito, 
Manchin, Duckworth, and a host of others.
    So as we focus on energy security, on clean energy 
security, on national security and economic opportunity, I 
think it is imperative that we be moving forward on the nuclear 
front as well. I am pleased that this bill is before the 
Committee today.
    Thank you.
    Senator Gardner. Thank you, Chairman Murkowski.
    Congressman Barton, you mentioned spending time in this 
room, unless you wish to feel like you are serving time, you 
are free to go any time that you would like.
    [Laughter.]
    We will turn now to Secretary Menezes.
    Thank you very much.

   STATEMENT OF HON. MARK W. MENEZES, UNDER SECRETARY, U.S. 
                      DEPARTMENT OF ENERGY

    Mr. Menezes. Thank you, Mr. Chairman.
    Chairman Gardner, Ranking Member Manchin, members of the 
Subcommittee, former Chairman Joe Barton, it's a privilege and 
an honor to serve at the Department of Energy, an agency tasked 
with, among other important responsibilities: overseeing our 
nation's energy supply, managing the Department's 17 National 
Laboratories, supporting early-stage energy R&D across a wide 
range of science and engineering disciplines and working 
effectively with our states and our local governments on our 
nation's energy challenges. And thank you for the opportunity 
to testify before you here today on this legislation pertinent 
to DOE.
    Having looked at all of the bills, generally I can say 
that, much like the Department, we share the goals of a lot of 
these bills. We share some of the concerns that the bills try 
to address. The Department is doing a lot of work in a lot of 
these areas that are touched on by the bills. The bills appear 
to bring some coherence. So those are my general statements.
    As you know, the Administration continues to review these 
bills and I will also say that on most of these bills your 
staffs have been working with our technical experts over at DOE 
to look at some of the issues that the bills are trying to 
address. And I would invite you to continue to be able to use 
our staff and our experts as we continue to work on the bills, 
should they need any further refinement.
    As you know, the President's America First Energy Plan 
rightly calls for utilizing all of our energy sources to 
achieve energy security and economic strength at home and our 
energy dominance through our exports to markets abroad.
    In the area of fossil, through the increase in production 
of crude oil and other liquid fuels, refined petroleum products 
and production of natural gas, the United States has become, 
truly, an energy powerhouse. As Chairman Barton pointed out, 
who would have thought that back in the days when the 
Department of Energy was created due to an energy crisis and 
the fact that we were at mercy to the OPEC-producing nations? 
We set up SPR. We set up the Department of Energy and fast 
forward--I shouldn't say fast forward because it was quite a 
way to get to where we are today.
    Chairman Murkowski talked about the repeal of the export 
oil ban, but today, traveling around the world, to be able to 
stand up and to say that America is now the leading producer of 
oil and natural gas in the world is quite an extraordinary 
thing to say. Our allies and our partners across the world 
greatly appreciate that. That is a recent occurrence, but look 
at how far we have come.
    And, of course, our dominance in that area now provides 
choices to our friends and allies and our partners. And we are 
now economic competitors to all of those OPEC nations that have 
given rise to why we had to create the Department of Energy to 
begin with. We're competitors of the OPEC nations, and we are 
competitors to Russia.
    So it is an exciting time. It is the work that has been 
built by many Congresses, many leaders, and it is a great 
opportunity for us to continue in that area.
    Some of the bills deal with LNG export. We are committed to 
making decisions on natural gas export applications, 
expeditiously, once the agency has all the information 
necessary to make the required public interest determination. 
Additionally, the Department supports an effective 
modernization of the Strategic Petroleum Reserve.
    In the world of nuclear, of course, nuclear is clean, 
reliable, safe, but the nuclear power industry, as Chairman 
Murkowski points out, needs to continue to innovate. Advanced 
reactors, including small, modular reactors, hold great 
promise--a safe, clean, reliable and secure power for our 
nation. The Department recognizes that advanced reactors face 
challenges to ultimately achieving commercialization. In 
addition to early-stage research and development, the 
Administration supports prioritizing investments in nuclear 
energy research infrastructure to enable private sector 
innovation.
    Regarding the Nuclear Energy Leadership Act, it would 
enhance nuclear energy innovation specifically related to 
advanced nuclear reactor technologies, and the bill 
specifically would direct the Department to construct a fast 
neutron-capable research facility. And this, of course, is 
consistent with the Department's current plans to develop a 
virtual test reactor.
    Electricity--our economy, our national security and the 
well-being of our citizens depend on the reliable delivery of 
electricity. The Department, working with and through the 
national laboratories, supports key efforts to improve the 
resilience and the reliability of the nation's electricity 
system. These include supporting private industry's investment 
in transmission systems to support resource adequacy and 
generation diversity, developing and deploying cybersecurity 
technology for the energy sector, moving forward with new 
architecture approaches for the transmission and distribution 
system to enhance security and resilience and advancing energy 
storage.
    The Advancing Grid Storage Act of 2018 would establish a 
cross-cutting energy storage program at DOE. Its intent is 
consistent with the early-stage research in grid-scale energy 
storage that is currently being conducted by multiple offices 
at the DOE offices.
    The Flexible Grid Infrastructure Act proposes that the 
Department develop and implement reports, research and 
development, state technical assistance and an innovation 
challenge to harness the capability and flexibility of 
Distributed Energy Resources. Many states, many areas have been 
looking into that for years. This has been an issue that has 
been evolving over time. The Department appreciates the 
objectives of the proposed legislation and it incorporates the 
R&D conducted by several of our DOE offices, notably under our 
DOE Grid Modernization Initiative.
    Energy efficiency--DOE's Building Technologies Office leads 
a vast network of research and industry partners to continually 
develop innovative, cost-effective energy solutions. Efficient 
buildings help us to do more with less energy. This alleviates 
pressure on our electric grid and extends our energy resources.
    As a research agency, DOE plays an important role in the 
innovation economy. The Office of Technology Transfer, the 
National Laboratory complex and other DOE programs currently 
strive to meet the objective of advancing innovation driven by 
DOE R&D into the private sector.
    DOE has a long and successful history of working with 
states on the nation's most significant energy challenges. 
Nearly all state and territory governments and certain local 
governments have an energy security or assurance plan which 
serves as a foundation for action when an energy disruption 
threatens public welfare or when the energy industry requests 
help.
    These plans, as pointed out by Chairman Gardner, address 
energy supply risks and vulnerabilities and enable quick 
recovery and restoration, combined with training exercises 
which we think are key for personnel and stakeholders. Energy 
assurance plans enhance response and recovery efforts and 
support resiliency investments.
    Finally, the Department is eager to assist in promoting the 
physical and economic health of our veterans, who have given so 
much in service to our nation. We are equally committed to 
ensuring full protection for DOE federal employees and the 
rights of those who present claims of whistleblower 
retaliation.
    In conclusion, let me thank you again for the opportunity 
to be here today. The Department appreciates the ongoing 
bipartisan efforts to address our nation's energy challenges, 
and we look forward to working with the Committee on the 
legislation today and on future legislation. I would be happy 
to answer any of your questions.
    Thank you.
    [The prepared statement of Mr. Menezes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Gardner. Thank you, Secretary Menezes, and again, 
thank you, Congressman Barton.
    Under Secretary Menezes, in response to President Trump's 
Executive Order 13800, I mentioned in my opening, on 
strengthening the cybersecurity of federal networks and 
critical infrastructure, the Department issued a report that 
had identified a number of gaps in the nation's ability to 
recover from cyber incidents. Your testimony touched on a 
couple of these things, at least one of these gaps, that 
highlighted the importance of state planning for energy sector 
disruptions, including those related to cyber. The DOE report, 
I read with great interest and concern, working with Senator 
Bennet on the Enhancing State Energy Security Planning and 
Emergency Preparedness Act.
    Could you perhaps talk a little bit about and elaborate a 
little bit about how the Act can complement the Department's 
current authorities to help address any gaps in state energy 
planning? And as you consider that question, you know, you talk 
about the rapid restoration of services in the event of a 
disaster, how planning can help facilitate that and whether or 
not exercises under those plans for emergency preparedness help 
complement existing efforts in that area.
    Mr. Menezes. Thank you for the opportunity to comment on 
the bill.
    We have reviewed your bill. I have discussed this with 
Assistant Secretary Karen Evans and, indeed, it's very 
important that we have in place provisions that ensure that 
there are no gaps as we make sure that we have the most 
reliant, reliable and resilient system in place.
    Now, almost all states and certain local governments have 
assurance plans or some type of energy security plan and, you 
know, we typically provide much expertise and technological 
assistance to these states to develop the programs. A key part 
of this is training to ensure that the folks that have devised 
these plans know how to implement and carry them out when 
they're needed because these plans are designed to be able to 
respond when there is a threat or when there is a serious 
potential problem facing the grid opportunities. We do provide, 
at INL and other places in our labs and in our departments, the 
training and exercises to ensure that those that have the 
responsibility to carry these out are properly trained.
    Your bill sets forth in one spot, if you will, the clear 
lines of how these plans would be provided to the government, 
under what terms and conditions financial assistance would be 
given, what technical assistance the states and local 
governments would be expected to receive, and it ensures that 
the risks are borne at the level where the plans are developed 
and put in place. We think the states and the local governments 
know their resources and their systems, of course, better. We 
bring in the standards and the training. And so, we think that 
this bill certainly clarifies that.
    Senator Gardner. Great. Thank you, Secretary.
    In your testimony you also talked about other legislation 
that I am co-sponsoring dealing with the Department of Energy's 
Veteran's Health Initiative Act that leveraged tools that you 
have at your disposal to help improve veteran's health care. I 
think this is a great partnership that will yield significant 
benefits. It is a partnership that already exists between the 
DOE and the VA.
    Could you talk about some of the highlights and the 
benefits the DOE has already realized through this program and 
some of the success that this partnership has had to date, 
already, on veteran's health care and what kinds of 
developments you see in the future then knowing the knowledge, 
techniques and tools that you could further utilize under this 
legislation, partnerships can help create transfers of those 
ideas and innovations to the Federal Government?
    Mr. Menezes. And is this the, I'm sorry.
    Senator Gardner. I apologize. This is Senator Ernst's 
legislation, H.R. 6398, Senate bill 3656.
    Mr. Menezes. Well, as you're aware, you know, a key mission 
of DOE is leadership in advanced computing and we are using our 
abilities for data access and evaluation together with our 
computer capabilities to really develop in the field of human 
health related to our veterans.
    We think that the VA will serve as a template for how to 
build the capacity with other agencies as well so that we can 
evaluate the health care issues that we have identified, and 
indeed we believe that this can be used to address several of 
the issues that are unique to veterans.
    Senator Gardner. Secretary Menezes, I am going to cut you 
off right there. Perhaps we can continue that in follow-up but 
I am going to turn it over to Senator Manchin right now.
    Thanks.
    Senator Manchin. Thank you, Chairman.
    Mr. Menezes, if you could just explain in layman's terms so 
we understand--we are, for the first time, exporting more oil 
than we are importing. Is that correct?
    Mr. Menezes. We are a net exporter of natural gas, of oil 
and natural gas, yes.
    Senator Manchin. Okay.
    Why do we still import if we are independent? Why are we 
still buying oil? Is it because of refineries, or are there 
other reasons that you can make it very simple for me to 
understand?
    Mr. Menezes. Well, it's my understanding that we import 
some oil in part because we have refineries that were built to 
receive certain oil from certain places that we, frankly, could 
not get locally. So as a consequence we do import certain 
amounts of oil.
    Senator Manchin. So basically, we are not energy-
independent because we are depending on that oil for our 
refineries to run?
    Mr. Menezes. We are producing more and more, just over the 
past few----
    Senator Manchin. Well, I mean, it must be the oil that we 
are producing is not compatible with the refineries that we 
have----
    Mr. Menezes. Correct.
    Senator Manchin. ----and technology has not changed.
    Mr. Menezes. Right.
    Senator Manchin. Is there an incentive from the DOE to make 
them change the refineries or increase their technology to 
accept--so we can truly be energy-independent?
    Mr. Menezes. Right.
    So there are different kinds of oils that are produced all 
over and there are different kinds of processes----
    Senator Manchin. I understand. I understand all that.
    Mr. Menezes. ----and so, there will always be different 
kinds of refineries, really, all over, you know, our nation.
    Senator Manchin. But I mean, do you agree that, basically, 
to be energy-independent you should be able to not depend on 
any import at all to run your energy sector?
    Mr. Menezes. I do agree with that. I will also say we still 
import some refined products. So that is an issue as well. It 
seems to me along the lines of what you're saying----
    Senator Manchin. Is that your bailiwick--are you 
responsible for that as far as what our balances are in 
importing and exporting?
    Mr. Menezes. Well our--the Energy Information 
Administration does keep track of what we produce, what we 
import, what products we import, at what levels, at what times 
and where and----
    Senator Manchin. If I might ask to indulge the Chairman 
that we could go more in depth on that to find out how we could 
truly be energy-independent within our own country? So maybe 
further down the line we can bring you back or bring your team 
back.
    Senator Gardner. [Off-mic response]
    Senator Manchin. That would be good?
    Ok, thank you, Mr. Chairman.
    I also notice in your testimony you are still reviewing 
Senate bill 2803, which is the FUEL Act, and I want to thank 
you for working on that. The FUEL Act, S. 2803--I believe it is 
critical policy ensuring that advanced coal and natural gas 
technologies borne in our labs reach commercialization. Also, 
it is needless to say that it is important for maintaining coal 
jobs, reducing greenhouse gas emissions and ensuring our energy 
security.
    According to the Energy Information Administration, coal 
and natural gas will provide 56 percent of the total U.S. net 
electricity generation in 2040, and 50 percent of total global 
energy consumption by 2040. In the meantime, the current 
generation of coal plants is about 25 percent more efficient 
than the last generation, and a lot of this is due to federal 
partnerships and investments, but it is important that we keep 
our eye on the ball.
    So in light of the projected reliance on fossil fuels here 
in the U.S. and abroad, do you believe that ongoing federal 
investment in coal and natural gas technologies is key to 
ensuring a cleaner energy future? And, is there any stipulation 
we are putting as we have different types of agreements with 
India and China, who are not using the same technologies that 
we are, to be able to use the fossil fuel more cleanly?
    Mr. Menezes. Well, it's interesting that you say that and 
the short answer is yes, your bill is consistent with our 
``all-of-the-above.'' Your bill focuses on fossil, but again, 
it's ``all-of-the-above.''
    Senator Manchin. Right.
    Mr. Menezes. Particularly on India, I actually plan to be 
attending a trip to India next week. And on the agenda for 
India is we have a task force for natural gas. You know they 
have infrastructure issues, but they want to import more U.S. 
LNG.
    We also, of course, have nuclear that we're developing, we 
hope to develop in India as well. I mean, they want to bring 
electricity to 300 million of, you know, their people.
    What was----
    Senator Manchin. I understand that people are very much 
concerned that India will throw caution to the wind as far as 
the environment is concerned because they have to bring----
    Mr. Menezes. I apologize for interrupting but--so they, 
right now, they get most of their electricity from coal. They 
have an abundance of coal. I am going to specifically hold a 
meeting with those that are interested in our carbon capture 
utilization sequestration technologies.
    Senator Manchin. Right.
    Mr. Menezes. So they have actually----
    Senator Manchin. Well even just the scrubbers and low NOx 
boilers and baghouses for mercury. Those are just basically the 
things that we have perfected.
    Mr. Menezes. Well it is and, again, on the carbon capture 
side of it, you're talking about addressing the CO2 as well.
    Senator Manchin. Sure.
    Mr. Menezes. So you have the panoply of pollution control 
equipment that we offer but, specifically, they are looking 
for----
    Senator Manchin. But particulates is their biggest problem 
right now. They cannot breathe.
    Mr. Menezes. Right.
    Senator Manchin. And we have been able to cure that problem 
in West Virginia and across the country by using the 
technologies we have perfected.
    Mr. Menezes. Right.
    Senator Manchin. So I would hope that you would take that 
and maybe report back to us, because I am understanding the 
plants that they are putting online do not even have the basics 
of sulfur reduction, NOx reduction, baghouses for mercury, the 
things that we have already been doing for the last two 
decades.
    Mr. Menezes. Well, I will be happy to report when I return 
after my trip next week.
    Thank you.
    Senator Manchin. Thank you.
    Senator Gardner. Thank you, Senator Manchin.
    Senator Cassidy.
    Senator Cassidy. Senator Manchin, you asked why do we still 
import?
    One, we cannot get natural gas from where it is produced up 
to New England. And so, periodically they will import natural 
gas because the Governor of New York will not allow pipelines 
to deliver low-cost, clean-burning, natural gas to replace fuel 
oil in Manhattan or to supply gas for cold winters in New 
England. So I do think that is something to consider.
    Senator Manchin. The only thing I would say on importing 
from the standpoint can we import from--if we are going to 
import, can we import from the United States?
    Senator Cassidy. Got it.
    Senator Manchin. We have a lot of gas.
    Senator Cassidy. Yes.
    Senator Manchin. We are trying to get the pipeline.
    Senator Cassidy. Pipeline is cheaper.
    Senator Manchin. We are trying.
    Senator Cassidy. I am going to speak to the SPR reform 
bill, Senate bill 3618.
    We know that Congress established the SPR after the oil 
embargos of 1970. But now we use it for something besides 
energy reserve, we use it to preserve natural disaster 
protection, encourage a stable economy and rightly or wrongly 
to pay for legislation that sometimes has nothing to do with 
energy.
    It is now mandated about 290 million barrels from the SPR 
will be sold over the next decade or so. So the legislation we 
have proposed would authorize DOE to lease up to 200 million 
barrels of storage capacity. Now we think this is important 
because one, it will help keep the SPR in good working order, 
saving taxpayers money by ensuring costs for upgrades are 
included in the lease agreement. And successfully doing so 
could attract investment into approving facility operations to 
be responsive to commercial needs.
    It will not increase the use of fossil fuels; rather it 
allows fossil fuels that are going to be used to be stored. And 
if you will, it exemplifies the original motto of the EPA. If 
you know that little circle of Reduce, Reuse, Recycle, we are 
going to reuse and recycle capacity that otherwise would not be 
used. The carbon footprint will be lower because energy will 
not be used to create new caverns; rather, we will just reuse 
and recycle and reduce the need for new capacity with this 
bill. That said, Mr. Menezes, does the Department support this 
bill?
    Mr. Menezes. The Department supports the goals of the bill 
and supports what the bill is attempting to do.
    The fact--you and Chairman Barton outlaid the fact that the 
reason for the SPR might not be as great. It was designed for 
strategic reasons. We now have ample supply, if you will, for 
our domestic use. Although, as Senator Manchin mentioned, we do 
import some for reasons that you talked about.
    For us to be able to now put into our own economy, if you 
will, our--any oil that's stored there and it can be done in a 
way that continues to allow the caverns to function for the 
purposes that they were designed, you know, we would not object 
to that goal.
    Senator Cassidy. Now, foreign governments have the capacity 
to have the ability, under current law, to lease that space.
    Mr. Menezes. That's correct.
    Senator Cassidy. Do we know of any foreign governments that 
are interested in doing so?
    Mr. Menezes. I'm not sure that we know that they are, but 
your point is a good one. So if, you know, members of OECD that 
have an obligation to store oil, they can use our SPR, if they 
wish, to lease capacity.
    Senator Cassidy. So conceptually, we are really doing it 
just for the commercial space which we already allow for other 
countries.
    Mr. Menezes. That it was designed for----
    Senator Cassidy. Which is to lease the space.
    Mr. Menezes. Correct.
    Senator Cassidy. I understand there will be technical 
difficulties.
    Mr. Menezes. Right.
    Senator Cassidy. And commercial space, you draw it more 
rapidly than you do under the current arrangements.
    There have been salt dome cave-ins in Louisiana. I am 
concerned about this. But I gather there are also technical 
solutions to this issue?
    Mr. Menezes. Yeah, Sandia has been doing some modeling on 
it, and thank you for raising that question. We are well aware 
of the potential technical challenges. I mean, we use water 
right now to have the oil, to get it out of the caverns. We 
would probably need to--and then that corrodes some of the 
walls because of the salt domes and water. So we would need a 
brine solution, if you will, so you wouldn't have the 
interaction with the water.
    Senator Cassidy. And that technology exists because it is 
already done by----
    Mr. Menezes. The technology exists. The question is, we 
need to modernize some of the facilities because they are, in 
one case, you know, aging facilities.
    So we're modernizing them, then we have plans to spend 
about $1 billion, over $1 billion, for that.
    Senator Cassidy. Just to make the point that this SPR is 
already located where the refineries are----
    [Senator Cassidy points at chart.]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Menezes. Right.
    Senator Cassidy. ----that produce the refined products for 
the rest of the country and, indeed, parts of the world. So it 
is strategically located, hence the name, SPR, but also the 
modernization could be paid for by the revenue from this 
commercial lease. Correct?
    Mr. Menezes. I think that's the way that Congress has set 
it up.
    Senator Cassidy. That is the way the bill is written.
    So we need $1 billion. We could use the revenue from the 
leasing to pay for this upgrade that would ensure long-term 
viability and environmental soundness.
    I ask my colleagues for support, and I yield back.
    Senator Gardner. Thank you, Senator Cassidy.
    Senator Smith.
    Senator Smith. Thank you very much, Chair Gardner and 
Ranking Member Manchin and also Under Secretary Menezes. Thank 
you so much for being here today.
    I am very pleased to have the opportunity to discuss the 
bill that I introduced, the Advanced Grid Storage Act of 2018. 
I want to thank several of my colleagues on this Committee for 
co-sponsoring this bill, including Senators Heinrich, Hirono, 
Cortez Masto, Stabenow, King and Duckworth, and I look forward 
to talking with others of my colleagues about this bill and 
getting you interested in what we are doing here.
    So, you know, Minnesota is blessed with excellent wind and 
solar energy resources and more and more of that intermittent 
resources are coming into our electric grid, storage is a 
valuable tool, though not the only tool, for smoothing over 
periods when the wind is not blowing or the sun is not shining.
    I would note that a couple of weeks ago, I think it was, we 
had a very interesting discussion at this Committee around the 
importance of blackstarts, another example of where energy 
storage is so important to our country and to, actually, our 
security.
    So what my bill would do would be to encourage research 
into new and promising storage technologies and it would also 
help states and tribes and local governments and utilities have 
the information that they need to most successfully utilize 
this energy storage.
    Also, really importantly, my bill would support initial 
field deployments of storage technologies that perform well in 
the lab and this is an important step forward.
    I would like to point out as my colleague, Senator 
Murkowski, was pointing out that this is also an issue of 
economic competitiveness and the United States will either lead 
or we will follow when it comes to new technologies around 
energy storage. It will be either us in the forefront or it 
will be China in the forefront, and I am very interested in 
having us be in the forefront.
    So, Mr. Menezes, I want to thank you for your testimony 
which acknowledges, as I heard you, that my bill is consistent 
with the current priorities of the Department of Energy. I look 
forward to continuing to work with you on this bill because I 
think that it could help to pull together some disparate parts 
of what the Department of Energy is doing so that that works 
more efficiently, effectively, and we can get this technology--
not only develop it but then deploy it out into the world.
    Mr. Menezes. Well, thank you for your comments.
    You and I talked about this briefly, but the true 
breakthrough technology is in storage and it's just not limited 
to batteries----
    Senator Smith. Exactly.
    Mr. Menezes. ----although they will play a key part.
    As we've talked about, storage has many different component 
parts of it. Your bill identifies all of those and it looks, 
it's visionary in that it creates the opportunity for even 
future ways that we can store.
    We do--it's a top priority of the Department, it is 
dependent on resources, but currently we're spending about $300 
million across the Department on all types of storage. As I had 
mentioned, a significant portion is on EVs but, again, if that 
technology can translate over into our energy system, you know, 
that's well.
    Senator Smith. And as you said, as you and I said when we 
were speaking earlier, my bill would help to, kind of, pull 
together many of the existing strategies so that they can work 
well together and make them more efficient. I think that that 
is an important goal and also the importance of getting this 
new technology dispersed out so that we can all benefit from 
it.
    Mr. Menezes. Right.
    Senator Smith. Yes.
    Thank you. Thank you very much.
    Mr. Menezes. Thank you.
    Senator Smith. I want to also just mention, Chair Gardner, 
that my colleague, Senator Shaheen, is not on this Committee, 
but I would like to speak in support of her bill, Investing in 
State Energy Act. What her bill would do is to ensure timely 
release of DOE funds for the State Energy Programs and the 
Weatherization Assistance Programs. Both of these programs are 
so important to many of our states, including Minnesota.
    I have heard some things that give me great concern from my 
state about delays in the release of these funds by the 
Department of Energy over the past two years. Senator Shaheen's 
legislation would require DOE to distribute these funds within 
60 days of them being appropriated by Congress and that, seems 
to me, a really simple and commonsense formula that would 
prevent unnecessary delays. That is why I am supporting it, and 
I urge my colleagues to take a look at Senator Shaheen's bill 
as well.
    Thank you very much.
    Senator Gardner. Thank you, Senator Smith.
    Senator Portman.
    Senator Portman. Thank you, and I really appreciate you 
being here, Mr. Menezes.
    We love seeing Joe Barton again, former Chairman of the 
Committee on the House side, my colleague, and I am glad he is 
still focused on the energy issues. To Senator Gardner, this is 
a great opportunity for us to talk about some smaller bills but 
also the broader strategic advantages we now have as a country 
and how we take advantage of that.
    In Ohio, as you know, we are looking at the possibility now 
of expanding infrastructure more which is our key to get the 
Marcellus find and the Utica find to really reach its full 
potential, both in terms of wet gas and natural gas, but also 
some oil in Utica.
    I want to talk to you about an energy efficiency measure 
that we have before the Committee, and it is called S. 1089. It 
is legislation that I am authoring with Senator Shaheen. We 
have worked on a lot of energy efficiency bills over the years, 
as you know, in fact 
we are working on putting together our new version of Portman-
Shaheen right now with the hopes that we can get the 
Administration's support and get the support of the Congress.
    This is a small one, but a really important one. It has to 
do with what we think of as motor oil or machine oil, and it is 
a requirement that the Department of Energy, working with EPA 
and OMB, update a 2006 report on the energy and environmental 
benefits of re-refining used lubricating oil. It also requires 
DOE to provide recommendations on how to collect used oil and 
promote sustainable reuse. A lot has happened since 2006 in 
this area, and we think it is critical to update it and there 
are huge environmental benefits.
    Lubricating oil that has been used, as you know, can be re-
refined and reused, really almost indefinitely, and it is often 
not something that happens. This can happen because of the 
newer technologies we have, the processes we have, and we can 
upgrade that oil into higher grades over and over again.
    This refining process using used oil as a feedstock is a 
lot more energy efficient, of course, than using crude oil as 
the feedstock. If you think about that, it uses a lot less 
energy, needs only about 20 percent of the energy, as an 
example, that you would need if you start with crude oil. It is 
not only more energy efficient, it also helps protect the 
environment because, again, you are using the same oil again 
and again. Think of the motor oil or machine oil you might have 
in your garage and, unfortunately, many times when people are 
at the point of putting new oil in their car or a lawnmower or 
other vehicle, they dispose of it and sometimes improperly. In 
fact, your 2006 report says that 350 million gallons of used 
oil every year is disposed of improperly.
    That is really concerning because EPA has also said that 1 
gallon of this 350 million gallons of used motor oil can 
contaminate up to 1 million gallons of fresh water. So it needs 
to be collected as opposed to burning it or in some instances, 
again, improperly disposing of it which can contaminate 
groundwater and drinking water.
    The 2006 report also identified that refining results in 
less greenhouse gases and heavy metal emissions compared to 
burning used oil as fuel. Therefore, collecting it, obviously, 
has huge environmental benefits and this legislation will help 
identify the ways to increase the collection of that used oil 
and the feedstock for re-refining.
    Today, the Federal Government, state governments and 
commercial entities all use re-refined oil in their vehicle 
fleets which is a good thing. And with the increase in 
performance in emission standards, auto manufacturers are now 
requiring the highest quality of base oil to be used in their 
vehicles. This kind of oil, which is called Group III oils, is 
highly efficient and helps meet vehicle performance standards 
and emissions.
    I will say that we do lag behind other countries in terms 
of our re-refining of this oil. The used oil that we re-refine 
is a relatively small amount compared to what Europe is doing. 
As an example, they have about three times as much oil re-
refining capacity as the United States. Only about 12 percent 
of our used oil is re-refined. As a result, we have had to rely 
on foreign sources for new, and this highly-efficient Group 
III, oil that is required by the auto manufacturers.
    I think this creates a national security concern. Only 71 
percent of the world's Group III oil--I am sorry, 71 percent of 
it is now coming from not the United States, but coming from 
either the Middle East or China or Korea.
    Under Secretary Menezes, let me just ask you about it. Do 
you agree with me that there is a potential national security 
concern with such a heavy reliance on countries such as China 
and the Middle East for these highest quality oils which 
automakers are now requiring?
    Mr. Menezes. Yes, sir.
    As we've talked about how the world has changed where we 
have become a global leader in oil and natural gas production, 
we also see where China has become a provider of many of the 
products that we typically would have been producing here.
    So to the extent that we can identify ways that we can 
increase our domestic production of any of these types of 
products and get us off of the reliance of exports, it would 
certainly enhance our national security.
    Senator Portman. Well, thank you. Re-refining, of course, 
would do that.
    Do you agree that the U.S. should be a leader in building 
out our own re-refining capacities?
    Mr. Menezes. Yes.
    Senator Portman. This 2006 report we talked about 
identifies a lot of challenges and opportunities but, again, it 
is over a decade old and this updated report will help us 
identify ways to use this used oil, use it more sustainably and 
help industry grow, create more jobs.
    A final question, do you believe it is important for the 
Department of Energy to update this report?
    Mr. Menezes. Well, since we thought it was important back 
in 2005 when it went into the Energy Policy Act and the 
Department was fairly quick, I think, in turning around a 
study, but I checked and it appears that the 2006 study was, 
you know, the last study that the Department formed. I think 
that it's likely to reach some of the same conclusions, 
although in the discussion of the national security, I don't 
believe that that was a consideration in the past. So, to be 
sure, you know, the information is dated--it's 2006.
    Senator Portman. I appreciate your strong endorsement of 
updating it and appreciate my colleagues supporting the 
legislation.
    Thank you.
    Senator Gardner. Thank you.
    Senator King.
    Senator King. Thank you, Mr. Chairman.
    Thank you for joining us this morning.
    S. 3495, limits the Department of Energy's review of 
natural gas export, LNG export, applications to 45 days. Do you 
think that is realistic, that your Department can complete the 
review in 45 days?
    Mr. Menezes. So on the LNG export, you know, we look at it 
for authority to export. We are not the agency to actually have 
to put together the NEPA analysis on the facility itself that's 
being built.
    On our review, we have been doing this now for several 
years, you know, going back to the past Administration when we 
put in place a mechanism to determine the economic impact on it 
as well as the competitive impact on it and the other issues 
that we look at. So we are much more now fully informed than 
when we began the process, you know, back in 2014.
    So to that extent, on those, there are particular issues 
where we have done studies, we put them out for public comment 
and so on the issue, for example, of the impact of availability 
on price, on any kind of economic condition, we probably don't 
have to go through much of a very detailed analysis on that 
because we have been doing the analysis, and it's not----
    Senator King. Do you do an analysis of the impact on 
domestic gas prices for each of these applications?
    Mr. Menezes. We do.
    On gasoline prices?
    Senator King. No, natural gas prices.
    Mr. Menezes. Natural gas.
    Senator King. We are talking about exporting natural gas.
    Mr. Menezes. Right. Yes, we do it on pricing, and we do it 
on availability of supply.
    Senator King. You do do an economic analysis of the effect 
on domestic gas prices?
    Mr. Menezes. Right. We recently completed a study and we 
posted the findings, I think we published them in the Federal 
Register in July. And my recollection is it shows that were all 
of the amounts that are pending to be exported of natural gas 
and if you assume a high demand internationally where a lot of 
this, of course, will go--I think the numbers run out to 2054 
or so--that it will have, the impact will not be significant on 
pricing to where it would make that big of a difference, 
ultimately, on prices or availability.
    Senator King. I want to review that data.
    I want to go on record as being very skeptical of that. I 
do not see how you can significantly increase demand, in 
effect, by exporting and not affect domestic prices. We cannot 
repeal the law of supply and demand.
    Mr. Menezes. No.
    Senator King. But----
    Mr. Menezes. I'm happy to come by and show you the report 
and the comments.
    Senator King. I would appreciate that. Let's follow up on 
that.
    Mr. Menezes. And I think, by the way, I think we're still 
reviewing comments on it but so----
    Senator King. But you believe that 45 days is sufficient to 
do the necessary analysis?
    Mr. Menezes. Well, again, I don't know if 45 days, itself, 
but the fact is we shouldn't be creating any unnecessary delays 
on things that we have great familiarity with----
    Senator King. I would agree with that, but this still is an 
important consideration whether this project is in the national 
interest that certainly involves effect on domestic prices, its 
effect on supply. So are you supporting this bill?
    Mr. Menezes. Sometimes what causes delays, you know, we 
rely on the applicants to get us information.
    Senator King. Right.
    Mr. Menezes. Right?
    And so, while they may, you know, I can't say this for all 
cases, but it really is incumbent on the applicants. And these 
applicants are very sophisticated. They know what our standards 
are. They know what our requirements are. And so, to the extent 
that applicants can have the information that we can review, 
you know, file, if you will, timely then that, of course, 
allows us to do our job that much more efficiently.
    The delays sometimes result in not only agency review but 
in communicating with the applicants to ensure that they get 
the information to us that we need to----
    Senator King. Well, perhaps we could follow up with a visit 
to go over this data and talk about this issue of analysis on 
effect on price.
    Mr. Menezes. Absolutely.
    Senator King. Thank you.
    I just want to commend to you, S. 3656, just recently 
introduced by myself and Senator Ernst, that asks the 
Department of Energy to help us, particularly with the 
Veteran's Administration and the Department of Defense, in 
terms of big data analysis of medical personnel.
    I just came from a hearing in Armed Services--the medical 
system in the military has 9.4 million people in it and to the 
extent that we can analyze that data and use it to improve 
health care for veterans and active duty service people, I 
think that would be a great benefit. I hope you will look 
favorably on that bill.
    Mr. Menezes. Yes, sir.
    As you know, veterans' health has been a number one 
priority of Secretary Perry. He, himself, has volunteered to 
participate in some of the programs that we have ongoing. We do 
think that we can help address some of the unique health issues 
that veterans face.
    With our large computing abilities, we're working very well 
with the Veteran's Affairs. We're relying on their expertise on 
this to ensure the proper use collection of data, the storage 
of the data, the keeping of the data and the privacy concerns 
addressed. So it's an exciting opportunity. Secretary Perry is 
particularly pleased with the progress that we have been making 
in working with the Veteran's Affairs.
    Senator King. Thank you. We look forward to your support of 
S. 3656. I appreciate it.
    Thank you, sir.
    Mr. Menezes. Thank you.
    Senator King. Thank you, Mr. Chairman.
    Senator Gardner. Thank you.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    Mr. Menezes, welcome back to the Hill, your old stomping 
grounds.
    I would like to discuss the DOE and NRC Whistleblower 
Protection Act.
    This three sentence, good government bill may not be too 
long but it is very clear. It simply recognizes that under the 
Atomic Energy Act and a subsequent Energy Reorganization Act, 
the law provides employees of the Department of Energy with the 
same whistleblower protection rights that the law also gives to 
employees who work for DOE contractors and subcontractors.
    Basically, we seek to define who a ``person'' is. It simply 
was not fully defined in the previous legislation.
    Now, one may believe, as I do, that this will simply 
clarify what is already obvious, what a ``person'' is, that 
when Congress added DOE as a covered employer under a short 
provision in the Energy Policy Act of 2005, creatively titled, 
Whistleblower Protection, Congress intended to provide DOE 
employees with enforceable whistleblower protections. And I am 
not alone in this view. The Department of Labor (DOL) argued 
this view during administrative judicial proceedings.
    In 2007, the Department of Energy even assured the 
Government Accountability Office (GAO) that DOE was aware of 
the 2005 law and would comply with it. In that same GAO report, 
it noted that the NRC was already complying with the law.
    In fact, if you go online and open the Code of Federal 
Regulations today, you can download for yourself the DOL fact 
sheet that explains how DOE employees are protected by Section 
211 of the ERA.
    Mr. Chairman, I would like to request unanimous consent to 
enter into the record, the GAO report,----
    Senator Gardner. Without objection.
    Senator Duckworth. ----the CFR publication and Section 629 
of the Energy Policy Act of 2005.
    Senator Gardner. Without objection for all three.
    [Laughter.]
    Senator Duckworth. Alright, thank you, very generous.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Duckworth. I think that if we are all being honest, 
we will recognize that, of course, Congress meant to provide 
DOE employees with enforceable whistleblower protections, and 
that any other reading of Section 629 leads to an absurd 
result. That absurd result would require one to believe that 
Congress secretly chose not to define the term ``person'' in 
Section 629. I suppose, potentially, in the hope that many 
years later and many dollars spent later, DOE whistleblowers 
would discover during litigation that surprise, the protections 
Congress gave you in 2005 can never be enforced.
    Does anyone really believe Congress meant that? Does anyone 
really think that such a ridiculous reading results in a just 
result for brave DOE whistleblowers? And the answer should be 
clear.
    I hope we can move beyond the wonky discussions to focus on 
what really matters: DOE employees deserve the same 
whistleblower protections that are provided to employees of DOE 
contractors and subcontractors. These dedicated civil servants 
deserve these protections because the American people deserve a 
nuclear industry that operates at the safest possible levels. 
And coming from a state with 13 nuclear reactors, the most of 
any other state, this is something I am deeply concerned about.
    To achieve this, DOE personnel must have confidence that 
they can communicate with Congress and blow the whistle on 
specific energy law violations without suffering retaliation or 
loss of a job.
    Mr. Chairman, I would request unanimous consent that an 
endorsement letter from the Make it Safe Coalition, a 
whistleblower advocacy organization, be submitted into the 
hearing record. Their letter explains the public safety 
importance of DOE whistleblowers and the cost of not fixing 
this legal loophole now.
    Senator Gardner. Without objection.
    Senator Duckworth. Thank you.
    [The information referred to follows:]
   [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Duckworth. Thank you, Mr. Chairman. I hope we can 
move swiftly to clarify this important law by passing S. 2968.
    Mr. Menezes, if you have any comments on this issue, I 
would welcome them.
    Mr. Menezes. First of all, thank you very much for your 
description and the reasons why the bill is necessary. I 
learned an awful lot listening to it right now.
    I had met with your staff earlier and asked a question, you 
know, why is this bill necessary? And again, she, like many 
here in the room, was amending provisions of the EPACT of 2005 
and so Sam Fowler and I are going to get together. We talked 
specifically about it. We recall this provision and, indeed, 
it's something that we need to look at.
    I want to reassure you that whistleblower protection from 
retaliation and the value that they bring in helping the 
Department oversee, if you will, and operate all of our labs, 
all of our contractors, the Department itself--this is a top 
commitment of us to ensure their protection.
    If you will, let me get with Sam Fowler so that we can go 
through this. I talked to your staff earlier. It seems to be 
that the word ``persons'' was probably, you know, overlooked, 
if you will and let us get together and see if we can work 
things out on that. We have no opposition to the bill itself, 
as you know, and so I would like to get together with your 
staff.
    Thank you very much.
    Senator Duckworth. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Duckworth.
    If there are no further questions, we are going to wrap 
this Committee hearing up. I have some questions for the record 
from Senator Hoeven that I will enter into the record and ask 
that you reply to them as soon as possible.
    Questions for the record are due tomorrow by close of 
business. Other submissions for the record are due within 10 
business days.
    I would ask that you reply to Senator Hoeven's questions 
and any other questions that may be submitted as quickly as 
possible.
    With the thanks of this Committee, Mr. Menezes, thank you 
very much----
    Mr. Menezes. Thank you.
    Senator Gardner. ----for your support, and to the members 
participating today, thank you.
    This Committee hearing is adjourned.
    [Whereupon, at 11:08 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
